No.

IN THE
SUPREME COURT OF THE UNITED STATES
JAMAAL DIGGS - PETITIONER
vs.

DARREL VANNOY - RESPONDENTS)
PROOF OF SERVICE
, do swear or declare that on this date,
as required by Supreme Court Rule 29 I have served
>46t/ /&
the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERS and PETITION
FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party’s counsel,
and on every other person required to be served, by depositing and envelope containing the
above documents in the United States mail properly addressed to each of them and with firstclass postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3
calendar days.
I,

v

//
' 2021,

The names and addresses of those served are as follows:
Donald Landry
Vermilion Parish District Attorney
100 North State Street
Abbeville, LA 70510
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

/S

, 2021

13

RECEIVED
MAY 2 5 2021
gBBgtaWfflP-

